    Audit Report




    OIG-10-018
    Audit of the Financial Management Service’s Fiscal Years 2009
    and 2008 Schedules of Non-Entity Government-Wide Cash
    December 9, 2009




    Office of
    Inspector General
    Department of the Treasury




0
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 9, 2009


            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           FINANCIAL MANAGEMENT SERVICE

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Financial Management Service’s
                                    Fiscal Years 2009 and 2008 Schedules of Non-Entity
                                    Government-wide Cash


            I am pleased to transmit the attached audited Financial Management Service’s
            (FMS) Fiscal Years (FY) 2009 and 2008 Schedules of Non-Entity Government-wide
            Cash (the Schedules). Under a contract monitored by the Office of Inspector
            General, KPMG LLP, an independent certified public accounting firm, performed an
            audit of the Schedules of Non-Entity Government-wide Cash for FY 2009 and
            2008. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit
            Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial
                        Reporting; and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit of FMS’ Schedules, KPMG LLP found:

                    •   the Schedules present fairly, in all material respects, the balance of
                        Non-Entity Government-wide Cash as of September 30, 2009 and 2008,
                        in conformity with U.S. generally accepted accounting principles,
Page 2


        •   certain deficiencies in internal control over financial reporting that were
            considered collectively to be a significant deficiency 1 (described below),
            and
        •   no instances of reportable noncompliance with laws and regulations tested.

KPMG LLP also issued a management letter dated December 7, 2009, discussing a
matter relating to Government-wide Cash that was identified during the audit but
was not required to be included in the auditors’ reports.

KPMG LLP concluded that FMS’ IT general controls do not provide reasonable
assurance that: (1) an adequate security management program is in place; (2) access
to computer resources (data, equipment, and facilities) is reasonable and restricted
to authorized individuals; (3) changes to information system resources are authorized
and systems are configured and operated securely and as intended; (4) incompatible
duties are effectively segregated; and (5) contingency planning protects information
resources and minimizes the risk of unplanned interruptions and provides for
recovery of critical operations should an interruption occur. Individually or
collectively, the conditions observed and reported on could compromise FMS’ ability
to ensure security over sensitive financial data related to Government-wide Cash and
the reliability of key systems.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit performed in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on FMS’ Schedules or conclusions about the effectiveness of internal control
or compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated December 7, 2009 and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.



1
  A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged with
governance.
Page 3


Attachment

cc:   Richard L. Gregg
      Acting Fiscal Assistant Secretary
                 U.S. DEPARTMENT OF THE TREASURY
                 FINANCIAL MANAGEMENT SERVICE

Independent Auditors’ Reports and Schedules of Non-Entity Government-Wide Cash

                         September 30, 2009 and 2008
                                U.S. DEPARTMENT OF THE TREASURY
                                 FINANCIAL MANAGEMENT SERVICE


                                             Table of Contents



                                                                  Page

Independent Auditors’ Report                                        1

Independent Auditors’ Report on Internal Control                    2

Independent Auditors’ Report on Compliance and Other Matters        5

Schedules of Non-Entity Government-wide Cash                        6

Notes to Schedules of Non-Entity Government-wide Cash               7

Attachment – Management’s Response                                 10
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                           Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the accompanying Schedules of Non-Entity Government-wide Cash (GWC) of the U.S.
Department of the Treasury’s Financial Management Service (FMS) as of September 30, 2009 and 2008
(hereinafter referred to as the Schedules). These Schedules are the responsibility of FMS management. Our
responsibility is to express an opinion on these Schedules based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the Schedules are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
FMS’ internal control over financial reporting related to GWC. Accordingly, we express no such opinion.
An audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedules, assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall Schedule presentation. We believe that our audits provide a reasonable basis
for our opinion.

In our opinion, the Schedules referred to above present fairly, in all material respects, the balance of Non-
Entity Government-wide Cash as of September 30, 2009 and 2008, in conformity with U.S. generally
accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated December 7,
2009, on our consideration of FMS’ internal control over financial reporting relating to GWC and our tests
of its compliance with certain provisions of applicable laws and regulations relating to GWC. The purpose
of those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




December 7, 2009




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the Schedules of Non-Entity Government-wide Cash (GWC) of the U.S. Department of
the Treasury’s Financial Management Service (FMS) as of September 30, 2009 and 2008 (hereinafter
referred to as the Schedules), and have issued our report thereon dated December 7, 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for establishing and maintaining effective internal control relating
to GWC. In planning and performing our fiscal year 2009 audit, we considered FMS’ internal control over
financial reporting relating to GWC by obtaining an understanding of the design effectiveness of FMS’
internal control relating to GWC, determining whether internal controls relating to GWC had been placed
in operation, assessing control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the Schedules. To achieve this purpose, we did not
test all internal controls relating to GWC relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an opinion on the
effectiveness of FMS’ internal control over financial reporting relating to GWC. Accordingly, we do not
express an opinion on the effectiveness of FMS’ internal control over financial reporting relating to GWC.

Our consideration of internal control over financial reporting relating to GWC was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in the internal
control over financial reporting relating to GWC that might be deficiencies, significant deficiencies, or
material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the Schedules will not be prevented, or detected and corrected on a timely basis.




                                                                          2
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial
reporting relating to GWC that we consider to be material weaknesses, as defined above. However, we
identified certain deficiencies in internal control over financial reporting relating to GWC that collectively
we consider to be a significant deficiency and that is described in the Exhibit.

FMS’ response to the finding identified in our audit is presented in the Attachment. We did not audit FMS’
response and, accordingly, we express no opinion on it.

We noted a matter relating to GWC that we have reported to FMS management in a separate letter dated
December 7, 2009.

This report is intended solely for the information and use of FMS management, the U.S. Department of the
Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




December 7, 2009




                                                      3
                                                                                                       EXHIBIT

                                      U.S. Department of the Treasury
                                       Financial Management Service
                         Schedules of Non-Entity Government-wide Cash (GWC)
                  Significant Deficiency in Internal Control Over Financial Reporting


Information Technology Controls Over Systems Managed by FMS and Third Parties

FMS relies on an extensive array of information technology (IT) systems to manage Non-Entity
Government-wide Cash (GWC). Internal controls over these operations are essential to ensure the integrity,
confidentiality, and reliability of critical data while reducing the risk of errors, fraud, and other illegal acts.

Our review of IT controls covered general and selected application controls. General controls are the
structure, policies and procedures that apply to an entity’s overall computer systems. They include security
management, access controls, configuration management, segregation of duties, and contingency planning.
Business process application controls involve input, processing, and output controls related to specific IT
applications.

During our fiscal year 2009 audit, we performed a review of computer controls managed by FMS and
third-party service providers, using the Government Accountability Office’s (GAO’s) Federal Information
Systems Controls Audit Manual (FISCAM). Our review included general and selected application controls
over key systems related to GWC.

Our testing revealed that the necessary policies and procedures to detect and correct control and
functionality weaknesses have not been consistently documented, implemented, or enforced. FMS’ IT
general controls do not provide reasonable assurance that:

    1. An adequate security management program is in place;

    2. Access to computer resources (data, equipment, and facilities) is reasonable and restricted to
       authorized individuals;

    3. Changes to information system resources are authorized and systems are configured and operated
       securely and as intended;

    4. Incompatible duties are effectively segregated; and

    5. Contingency planning protects information resources and minimizes the risk of unplanned
       interruptions and provides for recovery of critical operations should an interruption occur.

Individually or collectively, the conditions we observed and reported on could compromise the FMS’
ability to ensure security over sensitive financial data related to GWC and the reliability of key systems.

Because of the sensitivity of the information, we issued a separate sensitive but unclassified report to the
Commissioner of FMS detailing the conditions identified and our recommendations for corrective action.

Management's Response:
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations.

                                                        4
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the Schedules of Non-Entity Government-wide Cash (GWC) of the U.S. Department of
the Treasury’s Financial Management Service (FMS) as of September 30, 2009 and 2008 (hereinafter
referred to as the Schedules), and have issued our report thereon dated December 7, 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain
reasonable assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for complying with laws and regulations applicable to the amounts
reflected in the Schedules. As part of obtaining reasonable assurance about whether the Schedules are free
of material misstatement, we performed tests of compliance with certain provisions of laws and regulations
relating to GWC, noncompliance with which could have a direct and material effect on the determination
of the amounts reflected in the Schedules, and certain provisions of other applicable laws and regulations
specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws and regulations applicable to FMS.
However, providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of certain of our tests of compliance described in the preceding paragraph disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of FMS management, the U.S. Department of the
Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




December 7, 2009




                                                                         5
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
                     U. S. DEPARTMENT OF THE TREASURY
                      FINANCIAL MANAGEMENT SERVICE

                   Schedules of Non-Entity Government-Wide Cash
                            September 30, 2009 and 2008

                                    (In Thousands)



                                                                    2009          2008

Non-entity government-wide cash
(Notes 1 and 2)                                             $ 269,443,060      364,690,866




             The accompanying notes are an integral part of these Schedules.
                                          6
                           U. S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

                 Notes to the Schedules of Non-Entity Government-Wide Cash
                                 September 30, 2009 and 2008

                                          (In Thousands)


NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  A. Reporting Entity

     The Financial Management Service (FMS) is a bureau of the U. S. Department of the Treasury
     (Treasury). FMS’ mission is to improve the quality of the Federal Government’s financial
     management. FMS’ commitment and responsibility is to help its customers achieve success. FMS
     does this by linking program and financial management objectives and by providing financial
     services, information, advice, and assistance to its customers. FMS serves taxpayers, Treasury,
     federal program agencies, and government policy makers.

     The financial activities of FMS are affected by, and are dependent upon, those of the Treasury and
     the Federal Government as a whole. Thus, the accompanying schedules do not reflect the results of
     all financial decisions and activities applicable to FMS as if it were a stand-alone entity.

     Non-Entity accounts are those accounts that FMS holds but are not available to FMS in its
     operations. For example, FMS accounts for certain cash that the Federal Government collects and
     holds on behalf of the U.S. Government or other entities. These schedules include the Non-Entity
     government-wide cash accounts.

  B. Basis of Accounting

     The standards used in the preparation of the accompanying schedules are issued by the Federal
     Accounting Standards Advisory Board, as the body authorized to establish generally accepted
     accounting principles for Federal Government entities. Accordingly, the accompanying schedules
     are prepared in accordance with U.S. generally accepted accounting principles.

     The accompanying schedules are different from the financial reports prepared by FMS pursuant to
     OMB directives that are used to monitor and control FMS’ use of budgetary resources.

  C. Non-entity Government-wide Cash

     Non-entity government-wide cash is held in depositary institutions or Federal Reserve accounts.

     Operating Cash of the U.S. Government represents balances from tax collections, customs duties,
     other revenue, federal debt receipts, and other various receipts net of cash outflows for budget
     outlays and other payments held in the Federal Reserve Banks, foreign and domestic financial
     institutions, U. S. Treasury Tax and loan accounts. Outstanding checks are netted against operating
     cash until they are cleared by the Federal Reserve System.




                This information is an integral part of the accompanying Schedules.
                                                  7
                        U. S. DEPARTMENT OF THE TREASURY
                         FINANCIAL MANAGEMENT SERVICE

               Notes to the Schedules of Non-Entity Government-Wide Cash
                               September 30, 2009 and 2008

                                       (In Thousands)


C. Non-entity Government-wide Cash (Continued)

   Agencies can deposit funds that are submitted to them directly into either a Federal Reserve
   Treasury General Account (TGA) or a local TGA depositary. The TGA is maintained at the
   Federal Reserve Bank of New York (FRBNY) and functions as the government’s checking account
   for deposits and disbursements of public funds. The Treasury Tax and Loan (TT&L) program
   includes about 9,000 depositaries that accept tax payments and remit them the day after receipt to
   FRBNY’s TGA. Certain TT&L depositaries also hold Non-entity Government-wide Cash in
   interest bearing accounts. Cash in the TGA and the TT&L program is restricted for Government-
   wide operations. The balances in these TGA accounts are transferred to the FRBNY’s TGA at the
   end of each day.

   U. S. TT&L Accounts include funds invested through the Term Investment Option program and
   the Reverse Repurchase Agreement program (Repo) program. Under the Term Investment Option
   program, Treasury auctions funds for a set term, usually in the range of 1 day to 3 weeks. Under
   the Repo program, Treasury invests funds through overnight reverse repurchase agreements.
   However, Treasury reserves the right to call the funds prior to maturity under special
   circumstances.

   The Supplementary Financing Program (SFP) Account is maintained at FRBNY. SFP is a
   temporary program announced by Treasury and the Federal Reserve to provide emergency cash for
   Federal Reserve initiatives aimed at addressing the ongoing crisis in financial markets. The
   program consists of a series of Treasury bills, apart from Treasury's current borrowing program.

   To promote stability in the mortgage market, a Federal Reserve account was established at JP
   Morgan Chase. Treasury uses this account to purchase Government Sponsored Enterprise (GSE)
   mortgage-backed securities in the open market. This account had a zero balance at September 30,
   2009.

   Other cash is mostly comprised of Automated Clearinghouse transfers and U.S. currency held by
   the Department of State.




              This information is an integral part of the accompanying Schedules.
                                                8
                           U. S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

                  Notes to the Schedules of Non-Entity Government-Wide Cash
                                  September 30, 2009 and 2008

                                          (In Thousands)


NOTE 2. NON-ENTITY GOVERNMENT-WIDE CASH

  Non-Entity Government-wide Cash includes the Operating Cash of the U.S. Government, managed by
  Treasury, and foreign currency maintained by various U.S. and military disbursing offices, at
  September 30, 2009 and 2008, as follows:

                                                                         2009                 2008
   Operating Cash of the U.S. Government:
   Held in Depository Institutions                               $    2,062,435        $    39,209,396
   Held in the Federal Reserve Account                             108,324,488               32,988,331
   Held in the Supplementary Financing Progam Account              164,944,579             299,491,411
   Subtotal                                                        275,331,502             371,689,138
   Outstanding checks                                               (6,280,034)             (7,415,945)
   Subtotal                                                        269,051,468             364,273,193
   Other Cash                                                           366,074                 386,036
   Subtotal                                                        269,417,542             364,659,229
   Foreign Currency                                                      25,518                  31,637
   Total                                                         $ 269,443,060         $   364,690,866


  Operating Cash of the Federal Government held by depositary institutions is either insured (for
  balances up to $250,000) by the Federal Deposit Insurance Corporation (FDIC) or collateralized by
  securities pledged by the depositary institution, or through securities held under reverse repurchase
  agreements.




                 This information is an integral part of the accompanying Schedules.
                                                   9
     ATTACHM
     ATTA CHMENT
             ENT




10
     ATTACHMENT




11
